No. 19-1134
In the

Supreme Court of the United States
Lonny E. Baley, et al.,
Petitioners,
v.
UNITED STATES, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit
BRIEF OF AMICI CURIAE PROFESSORS RONALD
A. CASS, DAVID F. FORTE, JAMES L. HUFFMAN,
DONALD J. KOCHAN, JESSE J. RICHARDSON AND
REED WATSON IN SUPPORT OF PETITIONERS
James L. Huffman, Esq.
Counsel of Record
5340 SW Hewett Boulevard
Portland, Oregon 97221
(503) 702-5420
huffman@lclark.edu
Counsel for Amici Curiae

295751

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I.

The Federal Circuit Court of Appeals
and the Court of Federal Claims have
m i scon st r ue d t he r e qu i r ement s of
constitutional federalism in the adjudication
and administration of water r ights.
Preserving the federal/state balance in this
area of concurrent state and federal power
is essential to the maintenance and survival
of our federal structure of government . . . . . . . . 2
A. Constitutional federalism demands
a balance between federal and state
powers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
B. Water Rights Defined by Federal
Law Are Governed (Administered)
under State Law . . . . . . . . . . . . . . . . . . . . . . . 5
C. Recognition of tribal water rights
does not constitute an adjudication  . . . . . . . 8
D. A History of Federal Deference to State
Administration of Water Rights . . . . . . . . . . 9

Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Agua Caliente Band of Cahuilla Indians v.
Coachella Valley Water Dist.,
849 F.3d 1262 (9th Cir. 2017) . . . . . . . . . . . . . . . . . . 6, 7
Arizona v. California,
373 U.S. 546 (1963)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Arizona v. San Carlos Apache Tribe of Arizona,
463 U.S. 545 (1983) . . . . . . . . . . . . . . . . . . . . . . . 4, 5, 12
Baley v. United States,
134 Fed. Cl. 619 (2017)  . . . . . . . . . . . . . . . . . . . . . . . . . 5
Bond v. United States,
564 U.S. 211 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Broder v. Water Co.,
101 U.S. 274 (1879) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
California Oregon Power Co. v.
Beaver Portland Cement Co.,
295 U.S. 142 (1935)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
California v. United States,
438 U.S. 645 (1978) . . . . . . . . . . . . . . . . . . . . . . . . . 9, 11
Cappaert v. United States,
426 U.S. 128 (1976)  . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 8

iii
Cited Authorities
Page
Colorado River Water Conservation District v.
United States,
424 U.S. 800, 96 S. Ct. 1236,
47 L. Ed. 2d 483 (1976) . . . . . . . . . . . . . . . . . . . 6, 12, 13
Colville Confederated Tribes v. Walton,
752 F.2d 397 (9th Cir. 1985) . . . . . . . . . . . . . . . . . . . . . 7
Grey v. United States,
21 Cl. Ct. 285 (1990), aff’d, 935 F.2d 281
(Fed. Cir. 1991), aff’d sub nom. Abel v.
United States, 935 F.2d 281 (Fed. Cir. 1991) . . . . . . 13
In re General Adjudication of All Rights to Use
Water in Gila River System and Source,
989 P.2d 739 (1999)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
New York v. United States,
505 U.S. 144 (1992)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Quackenbush v. Allstate Ins. Co.,
517 U.S. 706 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
United States v. District Court for Eagle County,
401 U.S. 520 (1971)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
United States v. New Mexico,
438 U.S. 696 (1978) . . . . . . . . . . . . . . . . . . . . . . . . 7, 8, 9
Younger v. Harris,
401 U.S. 37 (1971)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

iv
Cited Authorities
Page
Statutes and Other Authorities
U.S. Const., amend. V  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1345  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
43 U.S.C. § 372  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
43 U.S.C. § 383 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
43 U.S.C. § 661  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
43 U.S.C. § 666 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
14 St at . 2 5 3 , ch. 2 6 2 , Rev. St at . § 2 3 39,
U. S. Comp. Stat. 1901  . . . . . . . . . . . . . . . . . . . . . . . . 10
19 Stat. 377, 44 Cong. Ch. 107 . . . . . . . . . . . . . . . . . . . . . 10
29 Stat. 599, 44 Cong. Ch. 335 . . . . . . . . . . . . . . . . . . . . . 10
57 Pub. Law. No. 161, ch. 1093, 32 Stat. 388 . . . . . .  10, 11
Federalist 51 (Madison) . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Reed D. Benson, Deflating the Deference Myth:
National Interests vs. State Author ity
Under Federal Laws Affecting Water Use,
2006 Utah L. Rev. 241 (2006) . . . . . . . . . . . . . . . . . . . .9

1
INTEREST OF AMICI CURIAE1
Amici are teachers and scholars with extensive
engagement with constitutional, administrative and water
law. They have written and taught on subjects central to
the resolution of this case. Amici respectfully submit this
brief to convey their understanding of the law as it relates
to the administration and adjudication of water rights.
Amici have no interest in the outcome of this case beyond
a keen interest in the correct interpretation and optimal
development of the law.
Ronald A. Cass, Dean Emeritus, Boston University
School of Law & President, Cass & Associates
David F. Forte, Professor of Law, Cleveland State
University
James L. Huffman, Professor and Dean Emeritus,
Lewis & Clark Law School
Donald J. Kochan, Parker S. Kennedy Professor in
Law, Chapman University
Jesse J. Richardson, Professor of Law, West Virginia
University College of Law
Reed Watson, Professor of Practice & Director, Hayek
Center for the Business of Prosperity, Clemson University
1. No counsel for a party authored this brief in whole or in part,
and no such counsel or party made a monetary contribution intended
to fund the preparation or submission of this brief. No person made
a monetary contribution to its preparation or submission except
Cal-Ore. Properties has paid printing costs. All parties have been
given the required notice of Amici’s intention to file this brief and
all have consented.

2
ARGUMENT
I.

The Federal Circuit Court of Appeals and the
Court of Federal Claims have misconstrued the
requirements of constitutional federalism in the
adjudication and administration of water rights.
Preserving the federal/state balance in this area
of concurrent state and federal power is essential
to the maintenance and survival of our federal
structure of government.

The Court of Federal Claims ruled that the Klamath,
Yurok and Hoopa (hereafter Tribes) reserved water rights
in the Klamath River Basin are of a volume at least equal to
the amount of water the Environmental Protection Agency
has determined to be necessary to trigger endangered
species protection. In the absence of an adjudication in
state or federal court and contrary to the long history of
federal deference (both by Congressional enactment and
judicial precedent) to state adjudication of water rights,
the Federal Circuit affirmed and thus preempted, without
the participation of affected parties including petitioners,
the State of Oregon’s ongoing adjudication of Klamath
Basin water rights.
Independent of the 5th Amendment takings issue at
the root of this case, the Federal Circuit’s decision raises
serious federalism issues that this Court should address.
Few matters are of more importance to western states
like Oregon than the allocation of scarce water resources.
For a century and a half this Court and Congress
have mandated federal court deference to the states’
administration and adjudication of water rights. Deference
is particularly important to the wise administration of

3
this scarce resource where there is an ongoing state
court adjudication and where no federal interest will
be compromised. As with asserting any reserved rights
claims of its own, the federal government has every
opportunity to exercise its role as trustee for the Tribes
in the state court adjudication.
A.

Constitutional federalism demands a balance
between federal and state powers.

The Federal Circuit opinion in this case fails to address
the obvious and fundamental question of constitutional
federalism that warrants this Court’s consideration
and review. A basic challenge from the founding of the
Nation has been the maintaining of a proper balance in
the powers of the state and federal governments. The
federal balance is important for two reasons explained by
Justice Kennedy in Bond v. United States, 564 U.S. 211,
221 (2011): (1) “The federal balance is, in part, an end in
itself, to ensure that States function as political entities
in their own right.” (2) “’[F]ederalism secures to citizens
the liberties that derive from the diffusion of sovereign
power.’ ” (quoting from New York v. United States, 505
U.S. 144, 181 (1992)). It provides, in the words of Publius,
“a double security” to “the rights of the people.” Federalist
51 (Madison). The liberties at issue in this case – the
rights to due process and compensation when property
is taken for a public use – are among those the framers
sought to protect by a vertical separation of powers in our
“compound republic.” Id. The Federal Circuit’s failure to
respect the longstanding federal court deference to state
adjudication and administration of water rights not only
puts the liberties of water rights claimants at risk but
also undermines the critical balance of state and federal
powers.

4
While preserving the federal balance is important to
protecting American liberties, it poses other important
challenges for the judiciary. In explaining the “longstanding
public policy against federal court interference with state
court proceedings,” this Court identified “the notion of
‘comity,’ that is, a proper respect for state functions, a
recognition of the fact that the entire country is made
up of a Union of separate state governments . . . .”
“[A]nxious though the . . . [National Government may
be to vindicate and protect federal rights and federal
interests, [it] always endeavors to do so in ways that will
not unduly interfere with the legitimate activities of the
States.” Younger v. Harris, 401 U.S. 37,44-45 (1971). This
principle was reiterated more recently in Quackenbush
v. Allstate Ins. Co., 517 U.S. 706, 723, (1996): “Federal
courts abstain out of deference to the paramount interests
of another sovereign, and the concern is with principles
of comity and federalism.”
Certainly, federal deference is not required where
federal interests or federal rights would be compromised.
But this is not such a case. In Arizona v. San Carlos Apache
Tribe of Arizona, 463 U.S. 545, 571 (1983), this Court
identified three circumstances in which federal courts
“need not defer to the state proceedings:” Where (1) “state
courts expressly agree to stay their own consideration of
the issues,” (2) the “federal suit at issue is well enough
along that its dismissal would itself constitute a waste of
judicial resources and an invitation to duplicative effort,”
and (3) the “federal suit was brought by Indians on their
own behalf and sought only to adjudicate Indian rights.”
None of these circumstances exist in this case. There is
nothing in this case that threatens the Tribes’ rights or
any other federal right or interest. The Tribes have not

5
sought to adjudicate their rights in federal court, and
nowhere in the lengthy proceedings in this case has there
been anything resembling an adjudication of their rights.
If they are not satisfied with the state court’s ultimate
adjudication of their rights they “can expect to receive, if
brought for review before this Court,” as this Court said
in San Carlos, “a particularized and exacting scrutiny
commensurate with the powerful federal interest in
safeguarding those rights from state encroachment.” Id.
B. Water Rights Defined by Federal Law Are
Governed (Administered) under State Law.
The Federal Circuit dismisses the petitioner’s takings
claim on the grounds “that appellant’s water rights
were subordinate to the Tribes’ federal reserved water
rights.” 942 F.3d 1312, 1341 (App.63). Petitioners do not
challenge the Court’s recognition of the existence of the
Tribes’ senior water rights, nor do they challenge the
government’s conclusion that the Endangered Species
Act required curtailment of water deliveries. Rather
they challenge the Court’s affirmance, in the absence
of an adjudication of Klamath Basin water rights, of the
trial court’s ruling that there was no unconstitutional
taking because the “Tribes’ water rights were at least
co-extensive to the amount of water that was required
by defendant to satisfy its obligations under the [ESA] .
. . .” Baley v. United States, 134 Fed.Cl. 619, 679 (2017).
The Federal Circuit conflates two distinct legal
questions: (1) the law governing the acquisition, volume
and scope of a water right and (2) the law governing the
administration of water rights in general. The Court is
correct that that “tribal water rights arising from federal

6
reservations are federal water rights.” 942 F.3d at 1340
(App. 59). However, the Court is mistaken in concluding
that those rights are therefore “not governed by state law.”
Id. In support of that conclusion the Court cites Arizona
v. California, 373 U.S. 546, 597 (1963). But that case says
nothing about the states’ role in administering federal
water rights. It merely confirms “the power of the United
States . . . to reserve water rights for its reservations and
its property.” The Federal Circuit also cites Cappaert
v. United States, 426 U.S. 128, 145–46 (1976) in which
this Court reiterates that “Federal water rights are
not dependent upon state law or state procedures” but
recognizes that they can be adjudicated in state as well
as federal court. Thus, the fact that the volume and scope
of federal water rights are defined by federal law does
not diminish the role of state courts in adjudicating those
rights along with all other rights claimed in a particular
watershed.
The Federal Circuit again confuses these two distinct
issues in stating: “As the ‘volume and scope of particular
reserved rights ... are federal questions,’ Colorado River
Water Conservation District v. United States, 424 U.S.
800, 813, 96 S.Ct. 1236, 47 L.Ed.2d 483 (1976), there is
no need for a state adjudication to occur before federal
reserved rights are recognized.” 942 F.3d at 1340 (App.
59). Recognition of the existence of a right is not the same
thing as adjudication of the volume and scope of that right
which can only be done in a general adjudication of all
rights claims in a particular basin.
The court below then quotes from Agua Caliente
Band of Cahuilla Indians v. Coachella Valley Water Dist.,
849 F.3d 1262, 1272 (9th Cir. 2017): “[S]tate water rights

7
are preempted by federal reserved rights.” 942 F.3d at
1340 (App. 59). It is correct that tribal reserved rights
vest on the date of the reservation and are superior to
later appropriated rights, but the Aqua Caliente court’s
use of the term ‘preempt’ is misleading. Once federal
reserved rights are recognized, generally well after
the establishment of the reservation to which they are
appurtenant, all existing rights with priority dates later
than the date of the reservation become junior to those
reserved rights. That is not a preemption of state law
but rather in conformance with the law in every prior
appropriation state. The case cited in Aqua Caliente in
support of the Court of Appeal’s suggestion that federal
reserved rights preempt state law, Colville Confederated
Tribes v. Walton, 752 F.2d 397, 400 (9th Cir. 1985), actually
states an exception to the general principle of deference
to state law because the waters at issue “have no impact
on state water rights off the reservation.” That exception
does not apply in this case or in most general adjudications
of water rights.
The Federal Circuit also reads more than this Court
intended into its statement in United States v. New
Mexico, 438 U.S. 696, 715 (1978), that “the ‘reserved
rights doctrine’ is a doctrine built on implication and is an
exception to Congress’ explicit deference to state water
law in other areas.” The exception, described earlier
in the New Mexico opinion is to the states allocation
of “unappropriated water in the future,” not to state
administration of vested water rights. An exception,
cautioned this Court, that is to be narrowly understood
because “claims to water for use on federal reservations
inescapably vie with other public and private claims for the
limited quantities to be found in the rivers and streams.”
Id. at 698-699

8
C.

Recognition of tribal water rights does not
constitute an adjudication.

In Cappaert this Court noted that “federal courts
have jurisdiction under 28 U.S.C. s 1345 to adjudicate
the water rights claims of the United States.” 426 U.S.
at 145. The same is true of tribal reserved rights claims.
But there has been no federal court adjudication of the
tribal claims at issue in this case. Absent an adjudication
in either state of federal court there was no way for the
Federal Circuit to know the volume and scope of the tribal
rights. The Court stated that “given the facts of record in
this case, it was not necessary for the Tribes’ rights to have
been adjudicated before the Bureau acted.” 942 F.3d at
1340 (App. 59). But absent from those facts, yet necessary
to the Court’s decision, is the very extent and volume
of the Tribes’ rights. Extrapolating from a scientific
determination of the water requirements of an endangered
species under the Endangered Species Act, in a case to
which affected water rights claimants are not party, does
not constitute an adjudication of rights adequate to assure
due process to the petitioners. As the Arizona Supreme
Court stated in In re General Adjudication of All Rights
to Use Water in Gila River System and Source, 989 P.2d
739, 748 (1999): “To determine the purpose of a reservation
and to determine the waters necessary to accomplish
that purpose are inevitably fact-intensive inquiries that
must be made on a reservation-by-reservation basis.”
The Arizona Court quoted from this Court’s statement in
United States v. New Mexico, 438 U.S. 696, 701-702 (1978):
“This careful examination is required both because the
reservation is implied, rather than expressed, and because
of the history of congressional intent in the field of federalstate jurisdiction with respect to allocation of water.”

9
That there has been no adjudication of the Tribe’s
rights in federal court is not surprising given this
longstanding federal deference to state water law
administration. “The history of the relationship between
the Federal Government and the States in the reclamation
of the arid lands of the Western States is both long and
involved, but through it runs the consistent thread of
purposeful and continued deference to state water law
by Congress.” California v. United States, 438 U.S. 645,
653 (1978) (California). That deference, rooted both in
case law and statute, is greatest “for general stream
adjudications.” Reed D. Benson, Deflating the Deference
Myth: National Interests vs. State Authority Under
Federal Laws Affecting Water Use, 2006 Utah L. Rev.
241, 274 (2006). The reason was stated by this Court
in United States v. New Mexico, 438 U.S. at 705: “The
quantification of reserved water rights . . . is of critical
importance to the West, where . . . water is scarce . . . .
When . . . a river is fully appropriated, federal reserved
water rights will frequently require a gallon‑for-gallon
reduction in the amount of water available for water-needy
state and private appropriators.” Where, as here, there is
an ongoing state adjudication for the waters in issue, the
case for federal deference could not be more convincing.
D.

A History of Federal Deference to State
Administration of Water Rights

Federa l deference to stat e adjudication and
administration of water rights has a long history. In
1866 Congress declared “that whenever, by priority
of possession, rights to the use of water for mining,
agricultural, manufacturing, or other purposes, have
vested and accrued, and the same are recognized and

10
acknowledged by the local customs, laws, and decisions of
courts, the possessors and owners of such vested rights
shall be maintained and protected in the same.” 14 Stat.
253, ch. 262, § 9, Rev. Stat. § 2339, U. S. Comp. Stat. 1901,
p. 1437 (codified as amended at 43 U.S.C. § 661). In Broder
v. Water Co., 101 U.S. 274, 276 (1879), this Court stated
that the rights recognized in the 1866 statute were “rights
which the government had, by its conduct, recognized and
encouraged and was bound to protect, before the passage
of the act of 1866.”
In the Desert Land Act of 1877, 19 Stat. 377, 44 Cong.
Ch. 107, Congress again affirmed that “[t]he right to use
water [in the arid western states and territories) . . .
depend[s] upon bona fide prior appropriation . . . and all
surplus water over and above such actual appropriation and
use . . . shall remain and be held free for the appropriation
and use of the public . . . .” By the Act of February 26,
1897, 29 Stat. 599, 44 Cong. Ch. 335 (1897 Act), Congress
authorized state improvement and occupation of reservoir
sites under rules established by the Secretary of Interior
“subject to the control and regulation of the respective
States and Territories in which such reservoirs are in
whole or part situate.”
Section 8 of the Reclamation Act of 1902, 57 Pub. Law.
No. 161, ch. 1093, 32 Stat. 388 (codified as amended in
scattered sections of 43 U.S.C. § 372 et seq.) (Reclamation
Act of 1902), pursuant to which the Klamath Project was
established, declared in no uncertain terms Congress’
deference to the states on matters of water rights
adjudication and administration: “That nothing in this
act shall be construed as affecting or intended to affect
or to in any way interfere with the laws of any state or

11
territory relating to the control, appropriation, use, or
distribution of water used in irrigation, or any vested right
acquired thereunder, and the Secretary of the Interior,
in carrying out the provisions of this act, shall proceed
in conformity with such laws . . . .” Id. at ch. 1093, § 8, 32
Stat. 390 (codified as amended at 43 U.S.C. § 383). Four
decades later in California v. United States, 438 U.S. 645
(1978), this Court noted that the legislative history of the
Reclamation Act of 1902 makes clear that “state law was
expected to control in two important respects.” Id. at 665
First, acquisition of water rights by the United States
must be accomplished “in strict conformity with state
law.” Id. at 665 Second, distribution of waters released
from Reclamation facilities are to be “controlled by state
law.” Id. at 667
In California Oregon Power Co. v. Beaver Portland
Cement Co., 295 U.S. 142 (1935), this Court observed in a
footnote that “since the passage of the Desert Land Act,
[Congress] has repeatedly recognized the supremacy of
state law in respect of the acquisition of water for the
reclamation of public lands of the United States and lands
of its Indian wards.” Id. at 164.
Congress reaffirmed federal deference to state water
law and procedure, including with respect to Indian
reserved rights, in the McCarran Amendment, 66 Stat.
560 (1952) (codified as 43 U.S.C. § 666), which provides
that “consent is hereby given to join the United States as
a defendant in any suit (1) for the adjudication of rights to
the use of water of a river system or other source, or (2)
for the administration of such rights, where it appears that
the United States is the owner of or is in the process of
acquiring water rights by appropriation under State law,

12
by purchase, by exchange, or otherwise, and the United
States is a necessary party to such suit.” It is thus a waiver
of sovereign immunity in cases implicating federal water
rights or federal acquisition of water rights. It is not, as
noted above, an exception to federal court jurisdiction in
such cases
In United States v. District Court for Eagle County,
401 U.S. 520, 524 (1971) this Court ruled that McCarran
Amendment waiver of federal sovereign immunity
applies in cases involving federal water rights acquired
under state law as well as to reserved water rights. In
Colorado River, 424 U.S. at 810, this Court ruled that the
Amendment also allows state courts to adjudicate Indian
reserved water rights. “[B]earing in mind the ubiquitous
nature of Indian water rights in the Southwest, it is clear
that a construction of the Amendment excluding those
rights from its coverage would enervate the Amendment’s
objective.” Thus there is also concurrent federal and
state jurisdiction over Indian reserved water rights,
but federal court deference in all water rights cases is
appropriate because concurrent proceedings “are likely
to be duplicative and wasteful, generating ‘additional
litigation through permitting inconsistent dispositions
of property.’” Arizona v. San Carlos Apache Tribe of
Arizona, 463 U.S. 545, 566–68 (1983) (quoting Colorado
River, 424 U.S. at 819).
W hile the McCar ran A mendment establishes
concurrent jurisdiction over water rights disputes to
which the United States is a defendant, the long-standing
federal court deference to state courts, established before
the Desert Land Act, has continued under the McCarran
Amendment. In its opinion in Colorado River this Court

13
identified “a number of factors . . . [that] counsel against
concurrent federal proceedings[;]” Those factors include
“avoidance of piecemeal adjudication of water rights in
a river system,” “avoiding the generation of additional
litigation through permitting inconsistent dispositions
of property[,]” [a concern] “heightened with respect to
water rights, the relationships among which are highly
interdependent”, a recognition “that actions seeking the
allocation of water essentially involve the disposition of
property and are best conducted in unified proceedings,”
and “the availability of comprehensive state systems for
adjudication of water rights as the means to achieving
these goals.” Colorado River, 424 U.S. at 819.
It is not disputed that the federal courts have
jurisdiction to adjudicate tribal water rights. But the
Federal Circuit’s recognition of tribal reserved rights
in the Klamath Basin is not an adjudication. Although
tribal reserved water rights are defined by federal law,
due process requires that the volume and scope of those
rights be adjudicated in relation to the other rights claims
on the same water. As the United States Court of Claims
declared in a case affirmed by the Federal Circuit: “[T]he
quantity of water available to the Indians is determined by
the Arizona state court.” Grey v. United States, 21 Cl. Ct.
285, 290 (1990), aff’d, 935 F.2d 281 (Fed. Cir. 1991), and
aff’d sub nom. Abel v. United States, 935 F.2d 281 (Fed.
Cir. 1991).

14
Conclusion
The Framers of the United States Constitution
believed that a vertical separation of powers, balanced
between the national and state governments, would
constrain abuses of power and thus help preserve
the liberties of the people. It is among the judiciary’s
responsibilities in exercising its constitutional power
of judicial review to enforce a balance of powers in our
federal system. Where national and state powers are
concurrent, as they are in the adjudication of water
rights, the constitution’s federal structure, the principle
of comity and a long history of Congressional direction
culminating in the McCarran Amendment, require
that federal courts defer to the state adjudication and
administration of water rights unless federal adjudication
will have no effect on state adjudication. That this case
arises from a takings claim underscores that the waters
in issue do affect Oregon’s ongoing Klamath River Basin
adjudication. Notwithstanding that the Tribe’s water
rights arise from federal law, they should be adjudicated
in the State’s courts before it is possible to assess the
merits of petitioners’ takings claims.
				

Respectfully submitted,
James L. Huffman, Esq.
Counsel of Record
5340 SW Hewett Boulevard
Portland, Oregon 97221
(503) 702-5420
huffman@lclark.edu
Counsel for Amici Curiae

